TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                TIRNO-99-D-0005, Report on Compliance With
                Requirements Applicable to Major Programs
                and on Internal Control Over Compliance in
                Accordance With the Office of Management
                and Budget Circular A-133, Fiscal Year 2004



                                         September 2005

                             Reference Number: 2005-1C-175




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        TIRNO-99-D-0005, Report on Compliance With Requirements
                                 Applicable to Major Programs and on Internal Control Over
                                 Compliance in Accordance With the Office of Management and Budget
                                 Circular A-133, Fiscal Year 2004 (Audit # 20051C0241)

 The Defense Contract Audit Agency (DCAA) audited the contractor’s compliance with the
 requirements described in the Office of Management and Budget Circular A-133 Compliance
 Supplement that are applicable to its major Federal Government programs. The DCAA also
 audited the contractor’s December 22, 2004, certified final indirect cost rate proposal and related
 books and records for reimbursement of Fiscal Year 2004 incurred costs. The purpose of the
 audit was to determine the allowability and allocability of direct and indirect costs and to form
 the basis for negotiated indirect cost rates for the period ended October 3, 2004.
 The DCAA questioned $556,665 of overhead and $91,833 of General and Administrative (G&A)
 costs. The Internal Revenue Service’s portions of the questioned costs were $59,168 in overhead
 and $22,669 in G&A costs. According to the DCAA, the contractor did not accept the majority
 of the findings and recommendations with respect to the questioned costs. The DCAA
 recommended the contractor provide more training to its personnel emphasizing unreasonable
 costs per the Federal Acquisition Regulation1 and applicable supplements.


 1
     48 C.F.R. pt 1-53 (2002).
                  TIRNO-99-D-0005, Report on Compliance With Requirements
                   Applicable to Major Programs and on Internal Control Over
                 Compliance in Accordance With the Office of Management and
                            Budget Circular A-133, Fiscal Year 2004



The DCAA noted claimed direct costs, subject to the qualification stated below, are provisionally
approved pending final acceptance. The audit of direct costs disclosed no exceptions at this
time.
The DCAA stated that another Federal Government audit organization has audit responsibility
for the direct costs claimed on programs identified as Special Projects. The DCAA was able to
evaluate the indirect costs applicable to this organization.
However, the DCAA was unable to satisfy itself as to the contractor’s compliance with
Circular A-133 requirements or the allowability of the direct costs. The DCAA qualified its
audit report because results of the assist audits evaluating these costs had not been received.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
